LSC OIG Report No. AU00-004 February 2000
Home | Reports | Other formats: PDF 26K | Word97 48K | WordPerfect 59K
Legal Services Corporation
OFFICE OF INSPECTOR GENERAL
Review of Case Statistical Reports
Grantee: New Orleans Legal Assistance Corporation
Recipient No. 619030
Report No. AU00-004
February 2000
TABLE OF CONTENTS
EXECUTIVE SUMMARY
BACKGROUND
OBJECTIVES, SCOPE and METHODOLOGY
RESULTS OF AUDIT
CASE SERVICE REPORTING
Case Service Reporting Requirements
LSC Uses of Grant Activity Report
Examination of Reported Cases
CLOSED CASES
Untimely Closure of Cases
Legal Assistance Not Provided
Missing Case File
OPEN CASES
Computer Malfunction
Untimely Case Closure
Rejected Cases
Duplicate Cases
ADDITIONAL CASE MANAGEMENT ISSUES
Private Attorney Involvement Oversight
CONCLUSIONS
RECOMMENDATIONS
SUMMARY OF GRANTEES COMMENTS AND OIG DECISIONS
APPENDIX I - Listing of Findings and Associated Recommendations
APPENDIX II - New Orleans Legal Assistance Corporation Comments on Draft Report
APPENDIX III - OIG Staff Responsible for the Audit and Report
EXECUTIVE SUMMARY
The 1998 Grant Activity Report submitted by New Orleans Legal Assistance
Corporation (grantee) overstated the number of cases closed during the year by
7 percent.  The grantee reported 6,058 closed cases, but only an estimated 5,630
cases qualified to be reported as closed during 1998.  The grantee also overstated
cases open at year-end in its 1998 report.  The grantee had an estimated 3,046
cases open at year-end, but reported 3,937 cases.
There were three causes for the overstatement of closed cases.  Our review
of a sample of 85 closed cases revealed that: three cases were reported as closed
in 1998 even though legal activity had ceased prior to 1998; two cases did not
involve the provision of legal services; and one case file could not be located by the
grantee.
Open cases at year-end were overstated for four reasons.  Due to a
computer malfunction, 485 cases were reported open even though they had been
closed during the year.  Our review of a sample of 85 open cases revealed that: 8
cases should have been closed because legal activity had ceased; 1 case should
have been rejected; and 1 case was a duplicate.
Another issue, not directly related to case counting, was disclosed during our
review.  In a sample of 85 open cases, 9 cases that were opened in 1997 or earlier
years lacked documentation showing that the grantee provided oversight of the
attorneys handling the cases under the Private Attorney Involvement program.
Recommendations to correct the above problems are on page 8.
BACKGROUND
New Orleans Legal Assistance Corporation is a nonprofit entity organized to
provide legal services to indigent individuals who meet established eligibility
guidelines.  Its priorities include housing, family, health, income maintenance and
consumer issues.  The grantee is headquartered in New Orleans, La. and has two
branch offices, one in Marrero and the other in Chalmette.  It is staffed with 22
attorneys, 5 paralegals, and 14 other staff who assist with cases and provide
computer, accounting, and administrative support services.  The grantee received
funding totaling $2,307,571 in 1998, of which about 88.8 percent or $2,048,753
came from LSC.  To satisfy its Private Attorney Involvement requirement, New
Orleans Legal Assistance Corporation relies on a judicare program and a subgrant to
the New Orleans Pro Bono Project.
The grantee prepares and submits an annual Grant Activity Report to LSC on
key aspects of its workload.  The report includes statistics for basic field services
and Private Attorney Involvement programs financed with LSC funds, including the
number of open and closed cases, types of cases, and the reasons for closing
cases.  For calendar year 1998, New Orleans Legal Assistance Corporation
reported 6,058 closed cases and 3,937 open cases to LSC.  The grantee kept track
of client cases with the WNYLC TIME System, an automated management
information system.
The grantees annual closed case statistics are its primary workload
indicators and performance measures.  In contrast, the reported open cases are not
a significant measure of a grantees volume of work or productivity.  Open cases
are simply the cases that have not been closed as of the last day of the reporting
period.  These open cases will eventually be closed and reported in the Grant
Activity Report.  In fact, most will be reported as closed in the following year.
Even though the number of open cases has limited utility as a productivity
indicator, it is important that open cases be accurately reported.  If the open case
count is inaccurate, future reporting of closed cases, in all probability, also will be
inaccurate.  In addition, inaccurate reporting of open cases may indicate
deficiencies in the underlying case management system used to produce the data
for the Grant Activity Report.  These deficiencies could result in the less effective
management of legal services delivery.
OBJECTIVES, SCOPE, AND METHODOLOGY
The primary objective of this review was to determine whether the grantee
provided LSC with accurate case statistical data in its 1998 Grant Activity Report.
The Office of Inspector General performed this review from October 4-13,
1999, at the grantees main office and at both of its branch offices.  The OIG
examined the grant proposal submitted to LSC by New Orleans Legal Assistance
Corporation for 1998 and the grantees 1998 Grant Activity Report.  During the on-
site visit, the OIG interviewed and collected information from the grantees
executive director, managing attorneys, staff attorneys, paralegals, intake staff,
information system specialist, and other support staff.
The OIG also obtained and reviewed the data in the grantees automated
case management system to determine if the case statistical data reported to LSC
in the Grant Activity Report was consistent with information in client case files and
in compliance with applicable LSC reporting requirements.
The OIG selected a random sample of 85 closed cases and a second random
sample of 85 open cases for detailed review.  The sample cases were selected
from the grantees case management system.  Actual overstatements of cases
identified by the OIG were eliminated from the universe before making our
projections to preclude double counting of errors.   The observed error rate for
closed cases was about 7 percent (6 errors in 85 cases).  Using the binomial
distribution, the 90 percent confidence interval was calculated, obtaining a lower
and upper estimate of about 4 percent and 12 percent for the true mean number of
errors.  For open cases, the observed error rate was 12 percent with a lower and
upper range of 7 percent to 17 percent.
We performed this audit in accordance with Government Auditing Standards
(1994 revision) established by the Comptroller General of the United States and
under authority of the Inspector General Act of 1978, as amended and Public Law
105-277, incorporating by reference Public Law 104-134, §509(g).
RESULTS OF AUDIT
Case Service Reporting
The grantees 1998 Grant Activity Report overstated the number of cases
closed during the year and the number remaining open at year-end.  Closed cases
were overstated because some cases were reported as closed in 1998 although
legal activity had ceased in prior years.  The grantee did not provide legal services
for some of the cases reported to LSC and some case files were missing.  Open
cases were overstated because a computer malfunction resulted in reporting some
closed cases as open at year-end.  Additionally, some cases reported as open at
the end of 1998 should have been closed.  Also, some open cases should have
been rejected and some were reported more than once.
Case Service Reporting Requirements
LSC requires recipients to submit an annual Grant Activity Report
summarizing the previous years legal services activity wholly or partially supported
with LSC funds.  The information in the report includes total number of cases
worked on, types of legal issues, number of open and closed cases, and the
reasons cases were closed.  The report also includes information on Private
Attorney Involvement cases.  The Case Service Reporting Handbook and Grant
Activity Report instructions provide reporting criteria for cases.  Reported cases
must be for eligible clients and within the recipients priorities.  Eligibility is based
on income and citizenship determinations and must be documented.
LSC Uses of Grant Activity Report
LSC uses grantee case statistical information to support the Corporations
annual budget request and as a performance measure in the performance plan
submitted in response to the Government Performance and Results Act.  The
compilation of program-wide data on open and closed cases is an integral part of
the management oversight process and also allows LSC management to keep its
Board of Directors and the Congress informed of significant program activities and
performance.  In response to the annual reporting requirement, the grantee
submitted the following information to LSC:
Type of Legal ProblemClosedOpen
Consumer/Finance762870
Education4321
Employment9935
Family2,3811,959
Juvenile158
Health546
Housing1,094382
Income Maintenance1,049410
Individual Rights14744
Miscellaneous414202
TOTALS6,0583,937
Examination of Reported Cases
The grantee should have reported an estimated 5,630 closed cases and an
estimated 3,046 open cases in its 1998 Grant Activity Report.  Our review of the
sample of 85 closed cases revealed 6 case counting errors.  Based on these errors,
an estimated 428 cases were incorrectly reported as closed in 1998.
Cases reported open at the end of 1998 were overstated by the erroneous
inclusion of 485 cases due to a computer malfunction.  Our review of the sample
of 85 opened cases revealed an additional 10 case counting errors, resulting in an
estimated overstatement of 406 cases.  Therefore, the open cases were overstated
by an estimated 891 cases.
CLOSED CASES
Untimely Closure of Cases
Cases were reported as closed in 1998 even though legal activity on the
cases had ceased before 1998.  We reviewed 85 closed cases and determined that
3 should have been closed prior to 1998.  The responsible case handlers confirmed
that the 3 cases should have been closed in 1997 or earlier years.
Legal Assistance Not Provided
The Grant Activity Report included cases for which no legal assistance was
provided.  Review of the documentation in the 85 closed case files sampled found
that 2 cases did not involve the provision of legal services.  The attorneys or
paralegals responsible for these 2 cases confirmed that legal services were not
provided.
Missing Case File
Of the sample of 85 closed cases we selected for review, 1 case file could not be located by the grantee.
OPEN CASES
Computer Malfunction
Cases reported open at the end of 1998 were overstated by the erroneous
inclusion of 485 cases.  This error occurred because the grantees computer
counted cases closed on December 31, 1998 as both closed and open on that
date.  Legal services were no longer being provided to the clients and the cases
were correctly reported as closed.
Untimely Closure of Cases
Some reported open cases should have been closed because legal activity
had ceased prior to the end of 1998.  We reviewed 85 sample open cases and
determined that 8 should have been closed.  The attorney or paralegal responsible
for each case confirmed that the cases should have been closed because legal
services had been completed.
Rejected Cases
We reviewed 85 open cases and determined that 1 was not a case and
should have been rejected.  The client was not eligible for and did not receive legal
assistance.  The attorney responsible for this case agreed that the case should
have been rejected.
Duplicate Cases
We determined that 1 duplicate open case was reported.  A client made
multiple requests for assistance for the same legal problem.  Each request was
treated as a separate case and reported to LSC even though the same legal
problem was involved.
ADDITIONAL CASE MANAGEMENT ISSUE
Private Attorney Involvement Oversight
The grantees staff did not always document its oversight of Private
Attorney Involvement cases.  In the sample of 85 open cases, 9 case files that
were opened in 1997 or earlier years lacked documentation of any oversight of the
attorneys who were assigned the cases under the grantees Private Attorney
Involvement program.  The grantee did not have adequate procedures to
sufficiently document the oversight of attorneys handling cases under its Private
Attorney Involvement program.
CONCLUSIONS
The grantee needs to improve the accuracy of the case statistics reported in
the Grant Activity Report.  Its 1998 report overstated both closed and open cases.
Grantee management needs to improve supervisory review procedures to ensure
cases are properly classified as open or closed.  The grantee should also review the
data supporting the Grant Activity Report to detect errors and correct them before
the report is submitted to LSC.  Additionally, the grantee needs to improve its
oversight of the Private Attorney Involvement program to adequately document the
status of private attorney cases.
RECOMMENDATIONS
The OIG recommends that grantee management:
Instruct staff that instances in which legal services were not provided to the
client should not be reported to LSC as cases.
Implement procedures requiring supervisors to periodically review a sample
of closed cases and determine if legal services were provided to the client.
Instruct staff that cases should be closed in the year legal activity ceased.
Implement procedures to periodically review a sample of closed cases and determine if cases are being closed in a timely manner.
Implement procedures to periodically review a sample of open cases and determine if cases are being properly classified as active.
Adopt written internal procedures and forms to adequately document the oversight of its Private Attorney Involvement program.
SUMMARY OF GRANTEE COMMENTS AND OIG DECISIONS
Grantee Comments
The grantee agreed to implement the six recommendations in the draft
report.  The comments stated that Recommendations 1, 2, 3, and 5 had been
implemented and that Recommendation 4 had been partially implemented.
Recommendation 6 involved the adoption of written internal procedures and forms
to adequately document the oversight of its Private Attorney Involvement program.
According to the grantee "No LSC regulations or directives require that oversight of
private attorneys assigned PAI cases be documented."  Grantee management
agreed that their oversight of PAI cases could be improved.  The OIG discussed the
comments with the Executive Director who stated that the grantee plans to adopt
Recommendation 6.
OIG Decision
We revised the statement on our sampling methodology on page 3 to clearly
indicate the sample size selected and the evaluation of the errors found in the
sample cases.
Please provide a corrective action plan for implementation of
Recommendations 1 through 6.  The corrective action plan should include a
description of the action taken to implement the recommendations and the dates
corrective action was completed, or will be completed for the recommendations not
yet implemented.  Please submit the corrective action plan to the OIG within 30
days of the date of this report.
APPENDIX I
LISTING OF FINDINGS AND ASSOCIATED RECOMMENDATIONS
Findings:
1.Closed cases were overstated (page 6)Recommendations #1 - 4
2.Open cases were overstated (page 6)	Recommendation #5
3.Oversight of Private Attorney Involvement Program (page 7)Recommendation #6
APPENDIX II
Appendix II -- New Orleans Legal Assistance Corporation Comments on Draft Report.
APPENDIX III
OIG STAFF RESPONSIBLE FOR THE AUDIT AND THE REPORT
Michael Griffith (Auditor-in-charge)
Abel Ortunio
Anthony Ramirez
David Young
URL: http://www.oig.lsc.gov/reports/far/au98070/619030.htm